No. 19A______
IN THE
SUPREME COURT OF THE UNITED STATES
________________________
CHILDREN’S HOSPITAL ASSOCIATION OF TEXAS, et al.,
v.

Applicants,

ALEX MICHAEL AZAR, II, IN HIS OFFICIAL CAPACITY, SECRETARY,
DEPARTMENT OF HEALTH AND HUMAN SERVICES, et al.,
Respondents.
_________________________
Application For An Extension Of Time To File A Petition
For A Writ Of Certiorari To The United States Court Of Appeals
For The District Of Columbia Circuit
_________________________
APPLICATION TO THE HONORABLE
JOHN G. ROBERTS, JR. AS THE CHIEF JUSTICE
_________________________
SUSAN FEIGIN HARRIS
MORGAN, LEWIS & BOCKIUS LLP
1000 Louisiana Street, Suite 4000
Houston, TX 77002

DAVID B. SALMONS
Counsel of Record
GERALDINE E. EDENS
MICHAEL E. KENNEALLY
MORGAN, LEWIS & BOCKIUS LLP
1111 Pennsylvania Avenue, N.W.
Washington, DC 20004
(202) 739-3000
david.salmons@morganlewis.com

Counsel for Applicants

CORPORATE DISCLOSURE STATEMENT
Children’s Hospital Association of Texas, Children’s Health Care, doing business as Children’s Hospitals and Clinics of Minnesota, Gillette Children’s Specialty
Healthcare, Children’s Hospital of The King’s Daughters, Incorporated, and Seattle
Children’s Hospital are nonprofit entities and not publicly traded. There is no parent
or publicly held company owning 10% or more of their stock.

i

APPLICATION FOR EXTENSION OF TIME
In accordance with Rules 13.5 and 30.2 of the Rules of this Court, applicants
Children’s Hospital Association of Texas, Children’s Health Care, doing business as
Children’s Hospitals and Clinics of Minnesota, Gillette Children’s Specialty
Healthcare, Children’s Hospital of The King’s Daughters, Incorporated, and Seattle
Children’s Hospital respectfully request a 60-day extension of time, to and including
April 6, 2020, within which to file a petition for a writ of certiorari to review the
judgment of the United States Court of Appeals for the District of Columbia Circuit
in this case. The court of appeals entered its judgment on August 13, 2019, and denied applicants’ petition for rehearing on November 8, 2019. Unless extended, the
time for filing a petition for a writ of certiorari will expire on February 6, 2020. The
jurisdiction of this Court would be invoked under 28 U.S.C. 1254(1). The opinion of
the court of appeals (attached as Exhibit A) is reported at 933 F.3d 764. The court’s
order denying rehearing (attached as Exhibit B) is unreported.
1.

This case presents important questions concerning the deference that

administrative agencies may appropriately claim in interpreting the statutes they
administer. In 2017, the Centers for Medicare & Medicaid Services (“CMS”) promulgated a rule that changed the formula for calculating the maximum amount of Disproportionate Share Hospital (“DSH”) funding that a hospital treating disproportionately high numbers of Medicaid-eligible patients may receive in a given year. See
Medicaid Program; Disproportionate Share Hospital Payments—Treatment of Third
Party Payers in Calculating Uncompensated Care Costs, 82 Fed. Reg. 16,114 (Apr. 3,
2017) (“2017 Rule”). DSH funding is a critical source of funding for hospitals that
1

treat high numbers of Medicaid patients because Medicaid does not remotely cover
hospitals’ actual costs in serving Medicaid patients. Congress created the Medicaid
DSH program to help offset at least part of this consistent financial shortfall.
2.

Before the 2017 Rule, the applicable CMS regulation calculated a hospi-

tal’s annual DSH cap by subtracting the payments the hospital received from Medicaid and uninsured patients from the costs the hospital incurred furnishing covered
hospital services to Medicaid-eligible and uninsured patients. The 2017 Rule changes
that formula by requiring hospitals to also subtract payments received from thirdparty private insurance in (the comparatively infrequent) circumstances where a
Medicaid-eligible individual has private insurance coverage.

The result of this

change in the formula means that some hospitals, including applicants—children’s
hospitals that regularly provide costly neonatal intensive care unit services to newborn infants who are eligible for Medicaid because of their low birthweights and may
or may not be covered by private insurance—lose all of their supplemental Medicaid
DSH funding. That loss will cost applicants tens of millions of dollars every year.
3.

Applicants brought this lawsuit to challenge the promulgation of the

2017 Rule under the Administrative Procedure Act. The United States District Court
for the District of Columbia entered summary judgment in applicants’ favor, vacating
the 2017 Rule on the ground that it was “inconsistent with the plain language of the
Medicaid Act.” Children’s Hosp. Ass’n of Tex. v. Azar, 300 F. Supp. 3d 190, 205
(D.D.C. 2018) (applying Chevron U.S.A., Inc. v. Nat’l Res. Def. Council, 467 U.S. 837
(1984)). The district court explained that CMS’s expressly delegated authority under

2

the statute is restricted to determining the “costs” that may be included in the DSH
cap formula. Id. at 207. Otherwise, the statutory text unambiguously “indicates that
only payments made by Medicaid and by uninsured patients may be netted out from
‘costs’ to arrive at the hospital-specific limit.” Ibid. The district court concluded that
this reading of the statute’s language was also supported by the statutory structure,
context, and legislative history. Id. at 207-209.
4.

The court of appeals reversed. First, it held that there was “no need to

search for statutory ambiguity” at Chevron step one because the statute contained an
express delegation of authority. Children’s Hosp. Ass’n of Tex., 933 F.3d at 770. Instead of performing that Chevron step one ambiguity analysis, the court concluded
that it could “skip straight to asking whether the [2017] Rule is reasonable.” Ibid. In
the process, the court declined to “rely on the interpretive canon expressio unius est
exclusio alterius,” which it called a “feeble helper in an administrative setting.” Id.
at 770-771 (citation omitted). Second, the court held that the 2017 Rule was not arbitrary and capricious even though the court agreed with applicants that the agency
was incorrect when it asserted “that the 2017 Rule is consistent with [its predecessor
regulation] and so does not establish a new policy.” Id. at 773 n.3. Although this
Court has repeatedly held that an “agency must at least ‘display awareness that it is
changing position’ ” when it changes an existing policy, Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117, 2126 (2016) (citation omitted), the court of appeals held here
that “it makes no difference” that CMS has steadfastly—but erroneously—defended

3

the 2017 Rule on the ground that it was not a change in position. Children’s Hosp.
Ass’n of Tex., 933 F.3d at 773.
5.

Applicants filed a petition for rehearing. But after calling for a response

from the government, the court of appeals denied the petition.
6.

The D.C. Circuit’s holdings here conflict with decisions from other

courts, including this Court, and warrant further review. An express delegation of
authority does not justify skipping the non-deferential first step of Chevron in favor
of the deferential second step. Nor may courts in the Chevron setting give disfavored
status to particular canons of statutory interpretation (like expressio unius) or uphold
regulations that rest on an erroneous view that a regulation is not a change in position. The consequences of the court’s ruling, moreover, are devastating to applicants
and other hospitals that rely on supplemental DSH funding to help offset their consistent, multimillion-dollar losses treating Medicaid patients. By eliminating their
DSH funding altogether, the 2017 Rule jeopardizes these hospitals’ ability to continue
providing vital healthcare to their patients.
7.

Counsel for applicants respectfully request a 60-day of extension of time

to prepare and print the petition in this case. Between the order denying applicants’
petition for rehearing on November 8, 2019, and the current deadline of February 6,
2020, counsel with principal responsibility for preparing the petition have had
numerous other pressing professional obligations. These include: oral arguments in
Waithaka v. Amazon.com, Inc., No. 19-1848 (1st Cir.), U.S. Futures Exchange, L.L.C.
v. Board of Trade of the City of Chicago., No. 18-3558 (7th Cir.), Rittmann v.

4

Amazon.com, Inc., No. 19-35381 (9th Cir.), K&D LLC v. Trump Old Post Office LLC,
No. 18-7185 (D.C. Cir.), and Pacific Maritime Ass’n v. NLRB, No. 19-1101 (D.C. Cir.);
appellate briefs in Waithaka v. Amazon.com, Inc., No. 19-1848 (1st Cir.), Nicosia v.
Amazon.com, Inc., No. 19-1833 (2d Cir.), Lillie v. Office of Financial Institutions State
of Louisiana, No. 19-30705 (5th Cir.), U.S. Futures Exchange, L.L.C. v. Board of
Trade of the City of Chicago., No. 18-3558 (7th Cir.), InteliClear, LLC v. ETC Global
Holdings, Inc., No. 19-55862 (9th Cir.), and Pacific Maritime Ass’n v. NLRB, No. 191101 (D.C. Cir.); and a petition for a writ of certiorari in University of Pennsylvania
v. Sweda, No. 19-784 (U.S.).
8.

For all these reasons, applicants respectfully request that the due date

for their petition for writ of certiorari be extended by 60 days, to and including April
6, 2020.
Respectfully submitted,
SUSAN FEIGIN HARRIS
MORGAN, LEWIS & BOCKIUS LLP
1000 Louisiana Street, Suite 4000
Houston, TX 77002

January 24, 2020

/s/ David B. Salmons
DAVID B. SALMONS
Counsel of Record
GERALDINE E. EDENS
MICHAEL E. KENNEALLY
MORGAN, LEWIS & BOCKIUS LLP
1111 Pennsylvania Avenue, N.W.
Washington, DC 20004
(202) 739-3000
david.salmons@morganlewis.com
Counsel for Applicants

5

